     Office of Inspector General
         Audit Report

 FHWA’S WORKFORCE PLANNING PROCESSES
GENERALLY ALIGN WITH BEST PRACTICES, BUT
  SOME COMPONENTS ARE INCONSISTENTLY
         IMPLEMENTED OR LACK
         MAP-21 CONSIDERATION

          Federal Highway Administration


           Report Number: MH-2014-058
            Date Issued: June 19, 2014
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA’s Workforce Planning                           Date:    June 19, 2014
           Processes Generally Align With Best Practices,
           but Some Components Are Inconsistently
           Implemented or Lack MAP-21 Consideration
           Federal Highway Administration
           Report Number MH-2014-058

  From:    Thomas E. Yatsco                                         Reply to
                                                                    Attn. of:   JA-30
           Assistant Inspector General for
             Surface Transportation Audits

    To:    Federal Highway Administrator

           The Federal Highway Administration (FHWA) is responsible for overseeing
           approximately $75 billion in Federal funds provided to the States in fiscal years
           2013 and 2014 for infrastructure projects. FHWA’s strategic plan states that the
           Agency’s primary focus is to improve highway system performance, particularly
           its safety, reliability, effectiveness, and sustainability. To accomplish this mission
           and oversee States’ use of Federal highway funds, FHWA maintains a workforce
           of about 2,900 staff widely distributed across headquarters offices, 52 division
           offices, and other field offices across the country.

           In recent years, Congress and the Administration have called on Federal agencies
           to improve accountability in their operations and ensure efficient use of resources,
           including their workforces. The Moving Ahead for Progress in the 21st Century
           Act 1 (MAP-21) also established new requirements for FHWA, including a focus
           on measuring progress toward national transportation goals and consolidating
           programs.

           Given these requirements and growing demands on FHWA’s workforce, we
           reviewed FHWA’s processes for assessing its workforce needs. Specifically, we
           determined whether (1) FHWA’s workforce planning processes generally align
           with best practices and (2) FHWA has evaluated the workforce impacts of MAP-
           21.

           1
               Pub. L. No. 112-141 (2012).
                                                                                  2


We conducted our work in accordance with generally accepted Government
auditing standards. As part of this audit, we selected a stratified random sample of
15 out of 75 FHWA offices (20 percent) in 10 States and Washington, D.C.
Exhibit A provides further details about our scope and methodology.

RESULTS IN BRIEF
FHWA’s workforce planning processes generally align with six best practices
identified by the Government Accountability Office (GAO). Specifically, they
(1) align with FHWA’s strategic plan, (2) involve stakeholders, (3) identify
workforce gaps, (4) include strategies to address those gaps, (5) stress human
capital flexibilities to support workforce strategies, and (6) include means to
monitor and evaluate progress. However, we found that FHWA offices were
inconsistent in preparation of their workforce plans and interpretation of employee
survey results. Individual office workforce plans are critical because most of
FHWA’s employees are widely dispersed throughout the country. Yet, the plans
we reviewed varied in substance, ranging from very detailed documents to a one-
page document. We also found that not all regional managers considered the plans
to be mandatory. Additionally, while FHWA used employee survey results to
obtain feedback on human resources (HR) and workforce concerns, its individual
offices use varying thresholds to determine when a survey result warrants
management attention. Without a consistent approach, FHWA has less assurance
that its individual offices have sufficient workforce plans or effectively address
identified HR and workforce issues.

Despite the significant changes MAP-21 brought to FHWA’s programmatic
structure, the Agency has not conducted a comprehensive assessment of MAP-
21’s impact on its workforce. FHWA officials stated that major staffing changes
are not needed in part because MAP-21 consolidated rather than eliminated
programs and the related duties remain the same. However, FHWA officials did
not provide us with any documented rationale, such as a comprehensive workforce
assessment on the impact of consolidations, to support this statement. FHWA
officials also stated that they have not developed or acquired any new skills in
response to MAP-21 at this time but said the Agency has several rulemakings in
progress that will clarify the Federal role in implementing MAP-21 provisions and
help FHWA to determine whether and to what degree new skills are needed.
Finally, the Agency has not finalized its fiscal year 2014 final annual agency-wide
workforce plan that was due on October 1, 2013.

We are making recommendations to improve FHWA’s individual office
workforce plans, promote consistent interpretation of employee survey results, and
evaluate the impact of MAP-21 on its workforce.
                                                                                                                    3


BACKGROUND
GAO 2 worked with the Office of Personnel Management (OPM) to develop best
practices for workforce planning, as shown in table 1.

Table 1. GAO’s Workforce Planning Best Practices
    Number      Best Practice
    1           Align workforce planning with strategic planning and budget formulation
    2           Involve managers, employees, and other stakeholders in planning
    3           Identify critical occupations, skills, and competencies and analyze workforce gaps
    4           Develop strategies to address workforce gaps
    5           Build capacity to support workforce strategies
    6           Monitor and evaluate progress
Source: GAO


In April 2011, the U.S. Department of Transportation (DOT) and OPM issued an
on-site HR accountability review of FHWA. The DOT-OPM team found that
FHWA’s human capital programs, policies, and procedures met the Human
Capital Assessment and Accountability Framework (HCAAF 3) standards.
According to GAO, the workforce planning best practices we used for our report
are in alignment with HCAAF. FHWA’s workforce planning model has a number
of components, including a strategic plan, strategic implementation plan, strategic
human capital plan, annual agency-wide workforce plan, and individual office
workforce plans.

On July 6, 2012, President Obama signed MAP-21, the latest surface
transportation authorization, into law. Under MAP-21, changes to performance
management will impact FHWA programs by focusing on national transportation
goals, increasing the accountability and transparency of the Federal-Aid Highway
Program, and modifying project decision making through performance-based
planning and programming. MAP-21 also restructured core highway programs by
eliminating most current discretionary programs, creating two new formula
programs and a new discretionary program.




2
  The best practices are fully outlined in Workforce Planning: Interior, EPA, and the Forest Service Should Strengthen
Linkages to Their Strategic Plans and Improve Evaluation, issued March 2010, GAO-10-413.
3
  The HCAAF identifies five human capital “systems” that together provide a consistent, comprehensive representation
of human capital management for the Federal government. The HCAAF and its related standards and metrics fulfill an
OPM mandate to design systems and set standards, including appropriate metrics, for assessing the management of
human capital by Federal agencies. At the time we conducted this audit, OPM was developing a new standard known
as the Human Capital Framework.
                                                                                                                  4


FHWA’S WORKFORCE PLANNING PROCESSES GENERALLY
ALIGN WITH BEST PRACTICES, BUT SOME COMPONENTS ARE
INCONSISTENTLY IMPLEMENTED
FHWA’s overall workforce planning processes generally align with each of
GAO’s six best practices, but individual offices lack consistency in preparing
workforce plans and interpreting employee survey results to identify and address
workforce issues.

FHWA’s Workforce Planning Processes Generally Align With GAO
Best Practices
GAO identified six key workforce planning principles, which served as our
benchmark for evaluating FHWA’s workforce planning processes. Based on our
review of key agency-wide documents and FHWA’s workforce planning
processes, we determined that FHWA generally adhered to these principles.

Best Practice 1: Align Workforce Planning With Strategic Planning and
Budget Formulation
FHWA aligns its workforce planning processes with strategic planning. For
example, FHWA considers workforce planning in its key agency-wide planning
documents, including its strategic plan and implementation plan. See figure 1 for
FHWA’s workforce planning model. Specifically, FHWA’s strategic plan sets the
overall goals for the organization, while FHWA’s implementation plan identifies
actions to carry out strategic goals and objectives that are tracked through the use
of performance measures.

FHWA workforce planning processes are also aligned with budget formulation for
staffing issues. Although FHWA’s budget office does not have a written process
for determining the number of staff needed and what level of staffing the
Agency’s budget can support, officials stated that the Agency’s Budget and HR
offices collaborate on workforce planning, including setting staffing levels (see
exhibit B for a breakdown of the number of full-time equivalents) and reviewing
vacant positions across the country. Ultimately, FHWA’s Executive Director 4
approves the staffing level for the Agency. In addition, FHWA’s HR and Budget
officials meet every 2 weeks to discuss staffing issues.




4
    The Executive Director is FHWA’s Chief Operating Officer and assists the Administrator in establishing policies,
    programs, and priorities.
                                                                                     5


Figure 1. FHWA’s Workforce Planning Model




 Source: FHWA


Best Practice 2: Involve Managers, Employees, and Other Stakeholders in
Planning
FHWA allows managers, employees, and other stakeholders to provide input on
FHWA’s workforce planning processes. Hiring managers throughout the Agency
must consult with their supervisors and HR staff before making hiring and other
personnel decisions. For example, an FHWA manager we interviewed stated that
when vacancies occur, he consults with his supervisor to determine whether the
position can be filled and how—that is, whether the same qualifications and
responsibilities are still in the best interest of the Agency or whether the position’s
qualifications and/or responsibilities should be modified to better meet the
Agency’s business needs.

FHWA officials routinely meet and discuss workforce planning. For example,
FHWA offices hold annual meetings with HR staff to conduct strategic workforce
planning. Field HR offices meet annually to ensure consistent dissemination of HR
guidance and policies across the country. FHWA’s Human Resources
Management Council acts as an advisor to address employees’ HR concerns and
makes recommendations to senior management on its findings from FHWA’s
                                                                                  6


employee surveys. In addition, FHWA’s Strategic Workforce Planning and
Development Council focuses on addressing key workforce planning issues,
including future workforce needs, identifying skill gaps in mission critical
occupations, and fostering diversity. The Division Administrators’ Council
represents the 52 Division Offices and meets several times per year to make
recommendations to senior management for HR-related policies and guidelines.

Best Practice 3: Identify Critical Occupations, Skills, and Competencies and
Analyze Workforce Gaps
FHWA’s workforce planning processes generally identify critical occupations,
skills, and competencies. Specifically, FHWA’s annual agency-wide workforce
plan and its multi-year strategic human capital plan provide extensive information
about its workforce, workforce changes over time, succession planning, and
location of its staff (see table 2 for an example).

The annual agency-wide workforce plan also identifies critical occupations and the
skills and disciplines with the highest anticipated turnover. To help analyze
workforce gaps, HR specialists meet annually with FHWA offices to target
anticipated office hiring needs, identify whether office reorganizations are needed,
identify relevant changes at the State level, and review other workforce needs and
strategies of individual FHWA offices. HR staff documents these meetings and
uses a standardized set of questions to conduct these annual HR meetings.
                                                                                 7


Table 2. Permanent Employment in Fiscal Year 2012 by
Occupation
Occupation                                     Number   Percentage
Civil Engineers**                               1,051    36.30%
Managers/Supervisors*                           325      11.20%
Transportation Specialists**                    279       9.60%
Administrative Specialists                      239       8.30%
Finance/Budget Specialists**                    180       6.20%
Program Management                              173       6.00%
Technical/Clerical                              168       5.80%
Other                                           166       5.70%
Engineering/Survey Technicians**                125       4.30%
Community Planner**                             118       4.10%
Environmental Specialists**                     106       3.70%
Human Resources Specialists*                     56       1.90%
Attorneys                                        49       1.70%
Contract Specialists*                            49       1.70%
Equal Opportunity Specialists                    43       1.50%
Realty Specialists**                             43       1.50%
Information Technology Spec*                     39       1.30%
Other Engineers                                   10      0.30%
Total                                           2,894     100%
*Government-wide Mission-Critical Occupation
**FHWA Mission-Critical Occupation
Source: FHWA


Best Practice 4: Develop Strategies To Address Workforce Gaps
As part of its workforce planning processes, FHWA develops strategies for hiring,
collaboration, staff development, and succession planning to help close workforce
gaps. These strategies include using FHWA’s Discipline Support System to aid
with succession planning through seminars, webinars, competency-building
activities and Share Point sites for enhanced collaboration within disciplines such
as pavement and materials.

FHWA also employs human capital strategies, such as networking opportunities
and hiring flexibilities. For example, FHWA human capital flexibilities include
recruiting personnel through the Professional Development Program, which
provides approximately 2 years of entry-level career development for college
graduates with bachelor’s or master’s degrees. Additionally, FHWA offers an
Alternate Duty Location program, which allows FHWA Headquarters personnel to
fill positions in various field locations. For example, FHWA’s Office of Planning,
                                                                                                                    8


Environment, and Realty—headquartered in Washington, DC—has over
10 participants located throughout the country in the Alternate Duty Location
program and we confirmed that FHWA offices used the Alternate Duty Location
program to fill positions with 90 active personnel serving under the program as of
August 2013. Finally, FHWA takes efforts to address survey results. For example,
in 2013, based on the employee survey results, FHWA expanded opportunities for
employees to participate in the Alternate Duty Location by increasing approved
geographic locations from 28 to 46.

Best Practice 5: Build Capacity To Support Workforce Strategies
FHWA builds capacity to support its workforce strategies by promoting the use of
the Discipline Support System and human capital flexibilities. During FHWA’s
annual HR meetings, HR specialists and hiring managers identify vacancies that
could be filled using the Professional Development Program or other hiring
flexibilities, such as veterans’ authorities. FHWA’s HR specialists also discuss the
use of the Discipline Support System during annual HR meetings with FHWA
offices. Our review further found that HR specialists use a standard consultation
tool 5 when hiring, which includes a prompt to consider using hiring flexibilities
like the ones discussed above.

Best Practice 6: Monitor and Evaluate Progress
FHWA uses various plans and reports to monitor and evaluate its progress in
achieving performance targets and to track workforce issues. For example,
FHWA’s implementation plan establishes general performance metrics for its
workforce goals and objectives. FHWA personnel use progress reports and
specific performance targets to track metrics. For example, our review found that
in fiscal year 2012, FHWA’s target for average time to fill a vacancy was
100 calendar days, but FHWA’s actual average was 86 calendar days.
Additionally, FHWA’s annual agency-wide workforce plan includes separate
performance targets for turnover rates and efforts to meet minority and gender
representation benchmarks. The plan also tracks whether the Agency has sufficient
staff to maintain its workforce in major disciplines. We found that FHWA
managers and HR specialists also review the needs of individual office workforces
during annual HR meetings. Finally, FHWA uses the employee survey results to
identify Agency needs such as the expansion of the Alternate Duty Location
program.




5
  This document further assists FHWA hiring managers with strategic hiring practices, reviewing position descriptions,
restructuring positions as needed, developing and posting vacancy announcements, and ensuring adequate diversity in
the workforce.
                                                                                                                     9


FHWA Has Not Ensured That Its Individual Offices Consistently
Prepare Workforce Plans or Interpret Survey Results
While FHWA’s workforce planning generally meets GAO best practices, it does
not ensure consistent preparation of individual office workforce plans for effective
planning. In addition, employee survey results—a tool to obtain feedback on
issues and concerns—were not consistently interpreted to address HR and
workforce planning issues.

Individual office workforce plans are listed as key documents in FHWA’s
workforce planning model. These plans are important because most of FHWA’s
employees are widely dispersed throughout the country. However, FHWA lacks
consistent, detailed workforce plans across individual offices. Further, our review
found that not all managers considered the plans to be mandatory. For example,
one Director of Field Services 6 we interviewed required all subordinate offices to
submit a workforce plan, while another Director of Field Services did not.

FHWA provides guidance on how to prepare individual office workforce plans,
such as a description of current and future workforces, a gap analysis, 7 and a
strategy to close identified gaps. However, we found offices’ workforce plans
varied greatly. For example, 1 office provided us with a 26-page document as its
workforce plan, which covered an array of topics, including workforce profile,
workforce characteristics, training assessments, and skill gap analysis. In contrast,
another office provided us with a one-page organizational chart as its workforce
plan with basic personnel data. Without a consistent approach, FHWA has less
assurance that individual office plans include sufficient detail to allow for
effective workforce planning.

We also found inconsistent use of employee survey results among FHWA offices.
FHWA uses these employee surveys to obtain feedback on HR and identify
workforce concerns that warrant management attention. 8 For example, surveys
cover a wide array of topics, including job satisfaction, effective communication,
and learning and advancement opportunities. However, FHWA offices do not
consistently interpret employee survey results. According to the guidelines
included in FHWA’s 2012 survey, items that receive a score of less than 65 (out of
100) warrant additional attention. We found that FHWA offices did not
consistently use 65 as the threshold—either because they were not aware of this

6
  There are a total of four Directors of Field Services that report to the Executive Director at FHWA Headquarters.
Each Director of Field Service oversees 13 Division Offices and is involved in hiring, promotion reviews, and
approvals.
7
  According to FHWA, a gap analysis identifies and closes skill gaps that exist in mission critical occupations, senior
executive positions, and other key positions and occupations within the Agency.
8
  Prior to 2013, FHWA’s employee surveys were conducted annually. According to FHWA, in fall 2013, FHWA
decided to conduct the surveys biannually, in part, to reduce the burden on employees. The next employee survey is
due in 2015.
                                                                                 10


guideline or because they established their own thresholds (e.g., focusing instead
on items with scores of 55 or lower or those that exhibit downward trends).
Consequently, FHWA has less assurance that offices consistently address issues
identified in the survey.

In March 2014, FHWA officials provided us with a slightly revised guideline for
survey result decision making for 2013 (see table 3). However, we noticed an
overlapping score range for 2013 and asked FHWA how its managers would
interpret the score range. For instance, if an item scores 65, it is unclear whether
FHWA managers should maintain or improve efforts considering that the number
65 repeats in the score range. According to an FHWA official, managers are
allowed “flexibility” to take an action in such cases. In our opinion, FHWA’s
guidelines for decision making regarding survey results are ambiguous and could
undermine the purpose of having a threshold for employee survey results.

Table 3. FHWA’s Guidelines for Survey Result Decision Making
    Score Range
                                     FHWA Managers Should…
   2012      2013
  75-80+    75-80+     Use resources elsewhere. Maintain level of performance.
                       Maintain current effort. Seek efficient, economically
 65-74.9       65-75   sound improvement.
 56-64.9       56-65   Focus improvement efforts.
                       Critical area, below 50 reveals generally negative
 44-55.9       44-56   judgments. Consider system improvements.
                       Danger zone, possible area of non-compliance.
   <44         <44     Immediate attention required.
Source: FHWA



FHWA HAS NOT FULLY EVALUATED THE IMPACT OF MAP-21
ON ITS WORKFORCE
Despite the significant changes MAP-21 brought to FHWA’s programmatic
structure and requirements, such as program consolidations, FHWA has not
conducted a comprehensive assessment of MAP-21’s impact on its workforce.
MAP-21 was effective in 2012, and FHWA’s subsequent 2013 employee survey,
which had an 86-percent participation rate, ranked the lack of clear internal
communication for implementing MAP-21 as one of the lowest scoring items.
FHWA officials stated that staffing changes are not needed in part because MAP-
21 consolidated rather than eliminated programs and the related duties remain the
same. However, despite numerous requests, FHWA officials did not provide us
with any documented rationale that supported this statement.

FHWA’s annual agency-wide workforce plan for fiscal year 2013 discusses MAP-
21 but does not provide details on the law’s workforce impacts. Specifically,
                                                                                                              11


according to this document, MAP-21 required FHWA to develop and acquire new
management and technical skills. However, FHWA officials stated that they have
not developed or acquired any new skills in response to MAP-21 at this time but
said that the Agency has several rulemakings in progress that will clarify the
Federal role in implementing MAP-21 provisions 9 and help FHWA to determine
whether and to what degree new skills are needed.

We were unable to assess the degree to which FHWA’s fiscal year 2014 annual
agency-wide workforce plan addresses MAP-21 or other issues because FHWA
has not finalized the plan. In November 2013, FHWA officials stated that the
Agency expected to issue the plan, which was due on October 1, 2013, by
January 31, 2014. However, as of the date of our draft report, May 14, 2014,
FHWA had not provided us with a final version of its agency-wide 2014
workforce plan for our review. Therefore, we excluded it from the scope of our
work.

FHWA has taken some actions to address MAP-21 in a few specific areas. For
instance, FHWA’s Office of Transportation Performance Management is currently
determining the Agency’s role in implementing MAP-21. Specifically, FHWA is
assessing what units would be responsible, what processes would need to be
enhanced, and what skill sets or positions are needed. Additionally, FHWA
realigned its Office of Infrastructure in recognition of new tunnel-related
provisions in MAP-21. 10 However, these limited actions are no substitute for a
comprehensive assessment of MAP-21’s impact on its workforce across all
offices.

CONCLUSION
To meet growing workload demands and calls for greater efficiency and
accountability in Government, effective workforce planning is critical. While
FHWA’s planning processes mirror elements of workforce best practices, more
can be done to ensure process consistency in preparing individual office workforce
plans and interpreting employee survey results. In addition, the Agency has not
comprehensively assessed its workforce to determine the skills needed to meet
these new requirements and identify the impact that MAP-21 has on its programs
and personnel. Without further actions to ensure consistency and assess MAP-21’s
impact, FHWA has less assurance that it has assessed workforce gaps at all levels
and identified plans to address them.


9
  MAP-21 established the following national performance goals for FHWA programs: Safety, Infrastructure Condition,
Congestion Reduction, System Reliability, Freight Movement and Economic Vitality, Environmental Sustainability,
and Reduced Project Delivery Delays.
10
   MAP-21 requires FHWA to implement a national tunnel inspection program and tunnel inventory, which FHWA
anticipates to model after the existing National Bridge Inspection Standards.
                                                                              12


RECOMMENDATIONS
We recommend the Federal Highway Administrator:

1. Conduct workforce plans for individual FHWA offices, including each
   Division Office, based on its guidance.

2. Require FHWA offices to address employee survey result items that fall below
   a clearly established threshold.

3. Finalize the fiscal year 2014 agency-wide workforce plan.

4. Complete a comprehensive assessment of MAP-21’s impact on FHWA’s
   workforce.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FHWA on May 14, 2014, and received its
response on June 13, 2014. FHWA’s response is included in its entirety in the
appendix to this report. FHWA concurred with recommendations 1 and 3. FHWA
provided appropriate planned actions and completion timeframes for
recommendation 1, and we consider it resolved but open pending completion. For
recommendation 3, FHWA stated it provided us with the final version of its
agency-wide 2014 workforce plan in March 2014, but the copy we received was
labeled as a draft; until we receive the final version or an estimated completion
date, we will consider this recommendation open and unresolved. FHWA partially
concurred with recommendations 2 and 4 but provided appropriate planned actions
and completion timeframes, and we consider them resolved but open pending
completion.

ACTIONS REQUIRED
FHWA provided appropriate planned actions and completion timeframes for
recommendations 1, 2, and 4, and we consider them resolved but open pending
completion of the planned actions. We consider recommendation 3 open and
unresolved and, in accordance with Department of Transportation Order 8000.1C,
request that FHWA provide the information described above within 30 days of this
report.
                                                                             13


We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Wendy Harris, Program Director, at (202) 366-2794.

                                       #

cc: DOT Audit Liaison (M-1)
    FHWA Audit Liaison (HCFM)
                                                                                 14



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
We conducted our work between January 2013 and May 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

Given the importance of workforce planning and new MAP-21 requirements, we
performed this self-initiated audit and reviewed FHWA’s processes and
procedures for assessing its workforce needs. Specifically, we determined whether
(1) FHWA’s workforce planning processes generally align with best practices and
(2) FHWA has evaluated the workforce impacts of MAP-21. We focused on
determining whether FHWA’s workforce planning processes and procedures are
generally in alignment with best practices.

To conduct our work, we reviewed FHWA’s key workforce planning documents
and processes. We then worked with our statistician to develop a stratified random
sample, identified workforce planning best practices based on the GAO workforce
planning principles developed in conjunction with the OPM, consulted with our
legal counsel regarding MAP-21 provisions, interviewed FHWA’s field and
Headquarters HR personnel, interviewed managers at FHWA Headquarters and
field offices, and consulted with GAO personnel. Specifically, we selected a
stratified random sample of 15 out of 75 FHWA offices (20 percent) in 10 States
and Washington, DC as follows: Stratum 1 – selected 2 out of 12 headquarters
offices, Stratum 2 – selected 8 out of 52 states and territories which equated to 9
out of 57 offices because some states and territories had more than one office
(8 out of 52 Division Offices plus 1 out of 5 Resource Centers), Stratum 3 –
selected 2 out of 4 Director of Field Services offices, and Stratum 4 – selected all
(2 out of 2) field HR offices.

While we were able to ultimately complete this audit without scope limitation,
FHWA officials did not always provide timely responses to our data requests in
the course of our work. FHWA also did not issue a final version of its fiscal year
2014 annual agency-wide workforce plan that was due on October 1, 2013.
FHWA officials confirmed the delay in November 2013, and stated that the
Agency expected to issue the plan by January 31, 2014. We provided FHWA with
a firm deadline to provide this document to us, and FHWA did not. After the
deadline, FHWA provided us with a “draft” copy. Since we could not review a
final version of FHWA’s fiscal year 2014 agency-wide workforce plan, we
excluded it from the scope of our work. We also used FHWA’s employee survey
results from 2012, which was the latest available information at the time of our
audit.

Exhibit A. Objectives, Scope, and Methodology
                                                                                        15




EXHIBIT B. FHWA’S PERSONNEL DATA: NUMBER OF FULL
TIME EQUIVALENT (FTE) EMPLOYEES




                                                                            FTEs: 260
                FTEs: 262
                                                FTEs: 291




                                                               FTEs: 290




Source: FHWA data as of September 2013 by Director of Field Services and Federal-Aid
        Division Offices.




Exhibit B. FHWA’s Personnel Data: Number of Full Time Equivalent (FTE)
Employees
                                                               16



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Wendy Harris                            Program Director

Courtney Potter                         Project Manager

Michael Masoudian                       Senior Analyst

Michael English                         Senior Analyst

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Fritz Swartzbaugh                       Associate Counsel

Andrea Nossaman                         Senior Writer-Editor

Christina Lee                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                             17




      APPENDIX. AGENCY COMMENTS



                                              Memorandum

Subject:   INFORMATION: Federal Highway                                Date: June 13, 2014
           Administration (FHWA) Response to
           Office of Inspector General (OIG)
           Draft Report on Workforce Planning

From:      Gregory G. Nadeau                                                  In Reply Refer To:
           Deputy Administrator                                                        HCFB-30

To:        Calvin L. Scovel III
           Inspector General (J-1)


      The FHWA is honored to be named the fifth best place to work in the Federal
      Government according to the Partnership for Public Service’s 2013 annual ranking
      that compares more than 300 Federal agencies and subcomponents. The Agency
      ranked in the top 10 percent of every workplace category, such as employee skills-
      mission match. This demonstrates FHWA’s commitment to analyze and use the
      survey results as a part of its workforce planning efforts. The FHWA also appreciates
      the OIG’s recognition that the Agency’s workforce planning processes align with all
      six of the Government Accountability Office’s best practices.

      Implementation of the Moving Ahead for Progress in the 21st Century Act (MAP-21)
      has been a priority, and FHWA has been proactive at evaluating its current and future
      needs. While the consolidation that occurred with MAP-21 reduced the number of
      programs, it did not reduce the size of the programs, nor did it significantly impact the
      types of skills needed for the workforce. The FHWA is organized around core areas
      of expertise, such as infrastructure, safety, operations, environment, and planning.
      Those core areas of expertise remain key to delivering the consolidated program
      structure under MAP-21, which is a 2-year funding bill that includes deadlines that go
      well beyond its legislative timeframe – some as far out as 2017.




      Appendix. Agency Comments
                                                                                     18


The FHWA has focused extensively on adapting its workforce to two of MAP-21’s
major areas − performance management and project delivery − and had already
implemented some key efforts prior to MAP-21’s enactment. For example, in
anticipation of MAP-21, FHWA made two major organizational changes within the
Office of Infrastructure by creating the Office of Transportation Performance
Management to lead cross-cutting aspects of a performance-related highway program
and the Office of Bridges and Structures in recognition of new tunnel-related
provisions in MAP-21. The FHWA also created the Center for Accelerating
Innovation to serve as a focal point for the rapid deployment of innovation into the
highway community.

The FHWA uses workforce planning to fulfill commitments to meet its
Organizational Excellence strategic goal to develop a diverse and collaborative
workforce that will enable the Department to advance a transportation system that
serves the Nation’s long-term social, economic, security and environmental needs.

OIG Recommendations and FHWA Responses

Recommendation 1: Conduct workforce plans for individual FHWA offices,
including each Division Office, based on its guidance.

Response: Concur. The FHWA will communicate guidance to support a consistent
approach to developing individual office workforce plans in addition to continuing its
annual workforce planning discussions that capture important workforce planning
information at the individual office level. The target date for issuing the guidance is
January 31, 2015, which is before the start of the 2015 workforce planning
discussions.

Recommendation 2: Require FHWA offices to address employee survey result
items that fall below a clearly established threshold.

Response: Concur in part. The FHWA Headquarters and division leadership are held
accountable to address employee survey results as part of their annual performance
plans. The 2013 All Employee Survey results were provided to the heads of FHWA
offices in December 2013. At that time, the Human Resources Management
Committee communicated the threshold to help focus each unit head’s development
of action plans to address the low scoring items in the survey. This guidance will be
reiterated in the final report of the 2013 All Employee Survey that is scheduled to be
completed and released to all employees by July 31, 2014.




Appendix. Agency Comments
                                                                                   19


Recommendation 3: Finalize the fiscal year 2014 Agency-wide workforce plan.

Response: Concur. The FHWA finalized the FY 2014 Agency-wide workforce plan
in March 2014. The final plan has been provided to the OIG. We request the OIG
close the recommendation upon receipt of this response.

Recommendation 4: Complete a comprehensive assessment of MAP-21’s impact
on FHWA’s workforce.

Response: Concur in part. The FHWA is currently conducting a comprehensive
strategic workforce assessment with an overall goal to develop a framework for
ensuring that FHWA staff resources are optimally deployed to meet its mission,
improve overall workforce efficiency, and to build in flexibility, resiliency, and
responsiveness. This assessment is measuring current deployment of FHWA staff by
location, program area, discipline, function, and core business process. The FHWA’s
leadership will identify actions to implement findings of the assessment, as well as
leadership responsibilities. Actions will be moved forward as resources and
circumstances allow. The target date for the completion of the study is July 31, 2014.




Appendix. Agency Comments
